National Aeronautics and Space Administration
Office of Inspector General
Washington, DC 20546-0001




                                      January 30, 2014

TO:          Larry N. Sweet
             NASA Chief Information Officer


FROM:        Paul K. Martin
             Inspector General


SUBJECT: Review of NASA’s Agency Consolidated End-User Services Contract
         (IG-14-013)


In December 2010, NASA awarded the Agency Consolidated End-User Services (ACES)
contract to HP Enterprise Services (HP) to provide desktop computers, laptops, mobile
devices, printers, and other computing equipment as well as end-user services, such as a
help desk and data backup, to NASA employees and contractors. The ACES contract is a
firm fixed price, indefinite-delivery/indefinite-quantity contract with a maximum value of
$2.5 billion. The 4-year contract runs from November 2011 through October 2015, after
which NASA may extend the contract under two, 3-year options. With the ACES
contract, NASA moved from a Center-based end-user services delivery model under
which the individual Centers had greater control over products and services to a centrally
managed, Agency-wide end-user services model. By adopting this enterprise model for
its most common information technology (IT) services, NASA hoped to save money and
enhance the security of its IT systems through leveraging economies of scale and
standardizing institutional IT architecture.

However, NASA and HP have encountered significant problems implementing the ACES
contract, including a failed effort to replace most NASA employees’ computers within the
first 6 months and low customer satisfaction. Given that NASA is halfway through the
base contract period, it must soon decide whether to exercise the first 3-year option or end
the contract after the base period and find another way to obtain these critical IT services.

The ACES contract requires that prior to exercising an option to extend the contract, the
Agency’s Contracting Officer must determine that doing so is the most advantageous
method of fulfilling NASA’s IT requirements. To support that determination, the Office
of the Chief Information Officer (OCIO) and the Contracting Officer must analyze option
  prices, HP’s performance, current market conditions, advances in technology, and other
  programmatic factors. This analysis must allow sufficient time for NASA officials to
  pursue appropriate alternative approaches with minimal impact to the Agency in terms of
  technical, cost, or schedule risk should they conclude the best path forward is not to
  extend the ACES contract.

  The Office of Inspector General (OIG) initiated an audit of the ACES contract in April
  2013 to determine whether the contract is improving employee end-user services,
  realizing cost savings and other efficiencies, and meeting Agency mission requirements.
  However, given that the time is fast approaching for NASA to decide whether to extend
  the ACES contract or seek other options, we are truncating our audit work and issuing
  this memorandum to enable NASA to consider the issues we identified during the course
  of our review. In light of the criticality of the IT services provided under the ACES
  contract, NASA’s decision on how to move forward will directly affect NASA’s more
  than 17,000 employees and thousands of contractors.

Executive Summary
  NASA’s lack of adequate preparation prior to deploying the ACES contract together with
  HP’s failure to meet important contract objectives has resulted in the contract falling
  short of Agency expectations. We attribute these shortcomings to several factors,
  including a lack of technical and cultural readiness by NASA for an Agency-wide IT
  delivery model, unclear contract requirements, and the failure of HP to deliver on some
  of its promises. In general, these issues fall into two categories: (1) issues related to the
  Agency’s overall IT governance and (2) management and problems specific to the ACES
  contract.

  NASA Not Prepared for an Enterprise-wide IT Approach. Moving from a
  Center-managed IT services contract to a centrally managed enterprise-wide end-user
  services delivery model required a cultural transition at NASA. Based on our previous
  work and work for this review, we found the transition has been difficult and remains
  incomplete. As noted in our June 2013 audit report, NASA’s current IT governance
  model is ineffective, overly complex, and not suitable for managing an Agency-wide IT
  environment.1 Implementing an enterprise delivery model within a historically
  decentralized IT environment requires a strong governance structure in which authority is
  exercised from an Agency-wide perspective, “buy-in” is obtained from key stakeholders,
  and adequate consideration is given to the state of the organization’s current and future IT
  needs. However, NASA did not adequately address the shortcomings in its IT
  governance practices prior to initiation of the ACES contract. Consequently, the Agency
  has been trying to implement an enterprise-wide IT solution across a decentralized and
  disparate IT environment led by a management culture largely resistant to such change.




  1
      NASA OIG, “NASA’s Information Technology Governance” (IG-13-015, June 5, 2013).

                                                   2
  Contract Not Meeting Agency Goals. Poor implementation by HP on important aspects
  of the contract and inconsistent oversight by NASA have contributed to the ACES
  contract failing to meet Agency expectations. Overall, we found that NASA employees
  have a negative perception of the ACES “brand.” We believe HP’s failure to replace or
  “refresh” computers across the Agency at the start of the contract as promised, the
  inability of HP and NASA to maintain a complete and accurate inventory of IT
  equipment, and inaccuracies in billing invoices greatly contribute to this perception.
  NASA’s lack of a complete system for ordering IT equipment and services further
  hinders the success of the ACES contract. Finally, top NASA IT officials expressed the
  view that HP is performing poorly under the contract even after taking into consideration
  the Agency’s failure to establish sound performance metrics.

  NASA is fast approaching a critical decision point when it must weigh the benefits of
  exercising the first 3-year option period or ending the ACES contract and seeking
  alternatives to meet the Agency’s IT needs. Regardless of its decision, NASA must
  ensure that its choice aligns with the Agency’s overall enterprise architecture and can be
  executed within the current and planned IT environment and within the expected budget.
  We urge Agency officials to consider the issues we highlight in this memorandum when
  determining how best to meet NASA’s future IT needs. We provided management with
  our draft memorandum for review and have incorporated the resulting technical
  comments, as appropriate.

Background
  For more than a decade, Lockheed Martin Corporation provided NASA with IT end-user
  services under the Outsourcing Desktop Initiative for NASA (ODIN) contract. Each
  NASA Center could tailor the ODIN contract to meet its needs using Center-specific
  delivery orders and Centers had the flexibility to purchase varying hardware and services
  and establish security parameters to meet Center-specific needs. Additionally, each
  Center had its own contracting and support staff assigned to the contract.

  The ACES contract is one of four contracts that make up NASA’s Information
  Technology Infrastructure Integration Program (I3P) and as such is part of an Agency
  strategy to move from a Center-centric to an enterprise model of providing IT services.2
  NASA established I3P in 2007 with the goals of enabling Agency-wide collaboration
  through a seamless IT infrastructure; realizing efficiencies in IT infrastructure operating
  costs; reducing the complexity of managing IT services; and improving IT security. To
  accomplish these objectives, the I3P program sought to identify IT infrastructure services
  common to all NASA Centers, consolidate those services into fewer contracts, and
  manage them from a centralized service office.


  2
      The other three contracts that make up NASA’s IP3 effort are: the Web Enterprises Services and
      Technology contract, which provides an Agency-wide capability to create, maintain, and manage
      websites; the NASA Integrated Communications Services contract, which consolidates the NASA
      Integrated Services Network wide area and Center local area networks and services; and the Enterprise
      Applications Service Technologies contract, supporting the NASA Enterprise Applications Competency
      Center to deliver enterprise application services.

                                                       3
In December 2010, NASA awarded the ACES contract to HP to provide, manage, secure,
and maintain the bulk of NASA’s personal computing hardware, standard software,
mobile IT services (including smartphones), and associated end-user services. Under the
contract, HP provides both “computing seats” and base services. Computing seats
include hardware (e.g., desktop computer, laptop, operating system, monitor, and docking
station) and services (e.g., software and system administration). Base services include
e-mail and calendaring, user authentication, security patching, encryption, “loaner pool”
equipment management, instant messaging services, and a “help desk” to respond to
customer questions and computer problems.

NASA pays HP a fixed price for each computer seat and additional amounts for base
services based on the estimated number of Agency employees.3 Unlike the ODIN
contract under which Centers paid for their delivery orders, the ACES contract requires
Centers to pay into a common working capital fund managed by the I3P Business Office
located at the NASA Shared Services Center (NSSC).4 From contract inception through
August 2013, NASA has paid HP $169 million – $93 million for seat services, $51
million for base services, and $25 million for contract adjustments such as infrastructure
upgrades, IT hardware, and software made via Infrastructure Upgrade Proposals (IUP)
and catalog purchases.5

In an effort to promote high quality service and customer satisfaction, NASA established
a series of performance metrics in the contract that affect HP’s compensation.
Specifically, NASA may retain up to 16 percent of the amount HP invoices monthly if
the company fails to meet agreed-upon metrics in areas such as customer satisfaction,
incident reporting, adherence to schedule, and subcontracting goals.6

As part of the ACES base contract, HP planned to replace all existing ODIN equipment
with HP equipment within the first 6 months of contract execution. However, for a
variety of reasons, this did not occur and instead HP purchased the existing computer
equipment from Lockheed Martin. Many of the significant issues and delays surrounding
the ACES contract relating to inventory, billing, and security are traceable to this
deviation from the original contract. Moreover, NASA cannot accurately measure the
true cost of the ACES contract nor determine whether it has resulted in savings compared
to the ODIN contract because the Agency is incurring additional costs beyond the base
and seat charges that affect the total cost of IT services. For example, HP has submitted

3
    According to the ACES contract, NASA’s N2 database, the system that contains the total estimated
    number of civil service and contractor employees at each Center, is used to determine this figure.
4
    The NASA Shared Services Center is a partnership between NASA and a contractor that consolidates
    support functions such as financial management, human resources, IT, and procurement.
5
    The ACES contract provides NASA with two options for ordering services and supplies: (1) Enterprise
    Service Request System (ESRS) or (2) IUPs. Because ESRS can only be used for individual orders,
    IUPs are used when supplies and services are needed for multiple users or for items not included in the
    ACES contract.
6
    A complete list of the metrics appears on pages 10 and 11 of this memorandum.

                                                      4
  two claims demanding several million dollars for services provided in excess of contract
  requirements and disputing amounts NASA has retained based on the company’s failure
  to meet performance metrics. These types of issues, along with a high level of turnover
  and staffing shortages at both HP and NASA, have increased tensions, burdened the
  working relationship, and diminished trust between HP and NASA.

  The OIG assessed the current state of the contract against the backdrop of these
  challenges, concerns we heard from NASA managers, and the critical decision about the
  future of the ACES contract the Agency Chief Information Officer (CIO) will soon need
  to make. To obtain a broad perspective, we interviewed ACES stakeholders across the
  Agency including the Agency CIO, several Center CIOs, representatives from the End-
  User Service Office, ACES Subject Matter Experts, HP representatives, a NASA
  Program Support Manager, procurement representatives, ACES Contracting Officers,
  Contracting Officer Technical Representatives, and members of the ACES Source
  Evaluation Board.7 We also reviewed the base contract, contract modifications, and other
  documentation relevant to the contract.

NASA Not Prepared for an Enterprise Approach
  NASA did not establish and continues to lack the necessary governance structure to
  successfully implement an Agency-wide IT solution. NASA’s current IT governance
  structure is overly complex and ineffective and, in our opinion, not well positioned to
  manage an enterprise-wide IT environment encompassing more than 50,000 federal
  employees and contractors. The ACES contract describes NASA as a singular “enterprise”
  when from a technical and practical standpoint it is not. Functionally, NASA does not
  operate as a single enterprise, but rather as 10 different enterprises as reflected in the
  relatively autonomous operating nature of its Centers. With implementation of the ACES
  contract, NASA moved from a Center-centric IT model to an enterprise model without
  fully considering the technical challenges of such a dramatic change. As one example,
  Center IT representatives told us that HP did not coordinate with Agency personnel to
  adjust firewall rules to allow for the shift from Center-operated to enterprise-wide
  deployment and management. Without this critical coordination, implementation of the
  contract was further delayed. In addition, IT representatives noted that requests previously
  addressed by Center-based ODIN personnel are now routed through the centralized ACES
  end-user services office. In their view, this more cumbersome process results in delays.
  Further, NASA IT managers failed to commit sufficient resources to execute an
  enterprise-wide approach. Notwithstanding enthusiasm for an enterprise model among
  some NASA IT representatives, most agreed that the funding and staffing applied to the
  transition were not adequate to ensure a smooth transition.

  7
      The End-User Service Office (EUSO) is responsible for providing service management and oversight for
      Agency end-user services. EUSO staff manage technical operations with oversight from the Marshall
      Space Flight Center CIO in collaboration with the enterprise level Service Executive. NASA Centers
      have named subject matter experts to monitor day-to-day contractor activity and be familiar with contract
      requirements. Both EUSO staff and subject matter experts are responsible for providing input used to
      evaluate HP’s performance.



                                                        5
NASA’s culture also affects its ability to implement an Agency-wide IT services model.
As noted in our 2013 IT Governance report, the Agency’s history and organizational
structure hinders the CIO’s ability to implement and enforce sound IT governance
initiatives. Moreover, the CIO has limited visibility and control over a majority of
NASA’s approximate $1.5 billion in annual IT investments. For example, each NASA
Center employs its own CIO and IT staff, and the Agency CIO has delegated to the
Center CIOs the responsibility, authority, and accountability for Center IT portfolios.
Given this structure, it is not surprising that a move to an enterprise model encountered
resistance. Indeed, HP officials told us that after awarding the ACES contract, NASA’s
former CIO tasked them with “selling” the enterprise model to Center personnel.

Complicating matters further, NASA’s decision-making process under the ACES contract
is highly bureaucratic and disseminated throughout multiple levels of Agency
management, including the Contracting Officer, the End-User Services Office, Center
representatives, the IT Management Board, and the Agency CIO. According to HP
representatives, this has complicated nearly every aspect of the contract because of the
length of time it takes to obtain agreement from all parties. Additionally, HP
representatives stated that at times NASA required top Agency managers to be consulted
and in agreement on basic decisions concerning the contract, which contributed to
inefficiencies. Moreover, we found that decisions that should be made at the
Agency-level are instead being made at individual Centers, sometimes with different
outcomes. For example, decisions regarding whether each Center must provide HP
employees with workspace and who is responsible for scheduling technical refreshes
have been left at the Center-level, leading to inconsistent guidance to HP.

We also found that satisfaction with the ACES contract and HP varied widely from
Center to Center, with the level of satisfaction often related to the relationships formed
between HP and NASA personnel at each location. This finding is similar to results of
our 2013 IT Governance report in which we found that NASA IT representatives tend to
rely on informal relationships rather than formalized business processes when managing
Agency IT resources.

Further complicating implementation of an Agency-wide IT model is the lack of a fully
mature enterprise architecture. The purpose of an enterprise architecture is to ensure that
business strategies and IT investments are aligned with and support an organization’s
strategic plan. At NASA, the Enterprise Architecture Office within the OCIO is
responsible for articulating the Agency’s mission supporting technologies and operational
model to accomplish the Agency’s IT goals. The Enterprise Architecture Office assesses
the Agency’s current IT architecture and determines an approach to move from the
“As-Is” state to the “To-Be” state. However, these plans were not in place prior to the
implementation of the ACES contract, leading to inconsistent deployments across the
Agency. Several NASA IT representatives told us that going forward the Agency should
establish strict guidelines to identify requirements that are truly unique to the individual
Centers. Further, several NASA IT officials suggested that the Agency needs to establish
a comprehensive IT foundation before an enterprise-based IT solution could be

                                             6
successful. Many of these IT officials also said that integration of all the I3P contracts,
including ACES, is weak and incomplete. In fact, an August 2013 review of the I3P
program by NASA officials recommended that NASA either reaffirm its commitment to
the program by providing adequate resources to accomplish its objective, de-scope its
objective to make it an executable program, or abandon the enterprise approach for
delivery of IT services.8

Source Evaluation Board. NASA managers we spoke with expressed concerns that
some of the issues encountered with the ACES contract can be traced to weaknesses in
the Agency’s request for proposal (RFP), the Source Evaluation Board (SEB)
methodology, and the staffing and process used to draft the contract.9 The
SEB – composed of NASA civil servants from a variety of Centers – was charged with
assisting the Source Selection Authority by providing expert analyses of the proposals
from prospective contractors. Although the SEB’s operations were based at the NSSC,
not all of the Board members were located there. Several SEB members worked at other
NASA Centers and had to travel to the NSSC for weeks at a time to perform board
functions. These members were not specifically dedicated to the contractor selection
process and would often return to their home Center to perform their normal duties.
Some NASA officials also questioned whether SEB members from the Centers had the
ability to view the prospective contract from an Agency-wide perspective as opposed to a
Center-specific viewpoint. Center representatives who were not SEB members expressed
concern that while they had an opportunity to review parts of the RFP and contract, the
SEB was not staffed to handle their feedback and many issues were left unaddressed by
the Board. Additionally, many officials we spoke with said the RFP was not fully
representative of the state of NASA’s IT environment and that HP did not perform
sufficient due diligence in preparing its proposal.

At the conclusion of their SEB duties, several Board members transitioned into positions
responsible for administering the ACES contract. This appears to have contributed to
disagreement between HP and NASA personnel regarding the terms of the contract and
further stressed the working relationship between the two groups. For example, HP
officials told us they believe the Agency is asking them to undertake tasks not required
by the contract and therefore the company is charging NASA and submitting invoices
when it performs these services. On the other hand, many NASA officials expressed the
view that HP should be more flexible regarding contract interpretation and show a greater
commitment to improving customer service.

Lessons Learned. During our review, NASA managers, IT representatives, and
procurement personnel shared their experiences relating to the transition from a
Center-based to an enterprise-level IT approach, including several “lessons learned”:


8
    I3P Assessment Team, “I3P Assessment Team: Final Report” (August 14, 2013).
9
    The SEB is a group of government civilian personnel representing functional and technical disciplines
    charged with evaluating contractor proposals and developing summary facts and findings. The SEB
    assists the Source Selection Authority by providing expert analyses of the proposals in relation to the
    evaluation factors contained in the solicitation.

                                                       7
            Consider as a threshold matter whether NASA’s IT environment is sufficiently
             homogenous and mature to implement an Agency-wide IT solution.
            Ensure adequate staffing and funding are available to support Agency-wide IT
             initiatives.
            Establish standardized end-user IT processes across the Agency and designate the
             appropriate decision making authorities.
            Establish guidelines to help identify requirements that are truly unique to
             individual Centers.
            Determine the Agency’s commitment to the overall I3P initiative.
            Include a thorough and complete representation of NASA’s IT environment in
             any future RFPs.
            Ensure personnel involved in the RFP process and SEB members have the skill
             sets necessary to handle feedback and concerns of Centers and Mission
             Directorates.
            Ensure SEB members are provided the appropriate time to perform their
             evaluation duties.
            Review whether it is appropriate for members of the RFP team or SEB to
             administer the resulting contract.
            Establish a single group to perform Agency-wide IT implementation to ensure
             consistency and leverage lessons learned during implementation.

Contract Not Meeting Agency Goals
  The ACES contract has faced significant challenges from the outset. Not only was the
  enterprise-wide approach a radical change for NASA, but HP was unfamiliar with
  NASA’s IT environment and culture. Additionally, the OCIO had limited experience
  developing and awarding an enterprise-wide IT contract and failed to adequately prepare
  for the difficulties entailed in consolidating the heterogeneous, Center-specific IT
  services previously provided under the ODIN contract into a single, Agency-wide IT
  services program.10

  Technology Refresh. In its proposal, HP promised to replace all existing ODIN laptop
  and desktop computers with new HP equipment – known as a technology refresh – within
  6 months of contract award, and this provision was incorporated into the ACES contract.
  However, HP was unable to deliver on this promise. According to Agency IT officials,
  this occurred because HP did not have a good understanding of NASA’s IT environment
  and did not perform sufficient due diligence to identify the issues the company would
  face during contract implementation. On the other hand, HP representatives attributed

  10
       Upon award of the contract to HP in December 2010, Lockheed Martin Corporation, the incumbent
       contractor, filed a protest claiming that NASA’s evaluation of proposals and its selection process was
       unreasonable. The Government Accountability Office denied Lockheed Martin’s claim in April 2011,
       but the protest delayed the start of the ACES contract for 4 months.

                                                         8
the delay in refreshing equipment to inefficient decision making by the OCIO on
hardware specifications for new computers and NASA’s inability to develop a
functioning ordering system for new IT equipment.11 Whatever the exact causes, HP’s
plan changed from a complete refresh of all NASA computers within the first 6 months to
a phased replacement approach that will not be complete until April 2014.

This early failure significantly affected the success and acceptance of the ACES contract.
According to the original contract, “the successful phase-in of ACES seats would
establish the foundation for IT services management and the achievement of ACES goals
and objectives as well as setting the tone for end-user service delivery throughout the
Agency.” The contract further stated that HP would execute a seamless phase-in of
products and services from ODIN to ACES and provide users with an immediate
technology refresh of computing services capabilities. According to HP, the refresh was
the foundation for achieving NASA’s goals for ACES and underpinned HP’s strategy to
save NASA more than 40 percent compared to the previous contractor, establish a single
stable IT security environment, and enable the introduction of new technology early in its
tenure as NASA’s new contractor for end-user services.

Once HP realized it could not accomplish the full technology refresh in the timeframe it
had promised, it purchased the computers, laptops, and other IT assets from Lockheed
Martin for approximately $27 million. However, a complete and accurate inventory of
ODIN assets was not available, and consequently HP had little assurance of exactly what
equipment it had purchased. In addition, purchasing ODIN equipment left many NASA
employees and contractors with computers not equipped with features specified in the
ACES contract. For example, the ACES contract required the refreshed computers be
equipped with encryption software that most legacy equipment lacked. The subsequent
theft of a laptop computer from a NASA employee containing sensitive information in
October 2012 prompted NASA IT officials to devote significant time and money to
expediting the deployment of encryption software on Agency computers. In the end,
NASA paid HP an additional $220,538 to undertake the hurried encryption effort – a task
and expense that would have been unnecessary had HP met its original requirement to
refresh all of the ODIN equipment with new, encrypted machines within the first
6 months of the contract. More than 2 years into the ACES contract, HP has yet to
complete a total hardware refresh; specifically, more than 9,000 of approximately 44,000
computers have yet to be refreshed as of September 2013.

Contract Modification 48. NASA uses performance metrics to assess HP’s progress in
meeting contract objectives and goals. Early in the implementation of the ACES
contract, NASA deemed HP “failing” in the areas of service delivery and incident
management and characterized customer satisfaction as inconsistent. According to the


11
     Once it became clear that HP would be unable to meet its contractual requirement to deliver a complete
     refresh in 6 months, the former Agency CIO needed to decide whether to continue working with HP or
     recommend terminating the ACES contract. According to several Agency IT officials, NASA decided
     against termination because the Agency had neither the funding nor the desire to extend the ODIN
     contract and the former NASA CIO was confident that HP could deliver on its other contract
     requirements.

                                                       9
I3P Program Manager at the time, all HP’s metrics were indicating failure because HP
was not providing the products and services specified in the contract. In response to
these issues, in April 2012, NASA and HP signed contract modification 48, which
fundamentally changed many of the requirements of the original contract, including the
phase-in-plan, deployment schedule, and performance metrics. In addition, HP agreed to
provide NASA monthly credits or discounts to its base services and seat service charges
up to $15 million. We summarize the major contract changes resulting from
modification 48 below:

      Performance Metrics and Retainage Pools. Changed the performance metric
       categories and the calculation approach and added a retainage pool schedule, or
       the amount NASA may withhold from HP based on failure to meet performance
       metrics. NASA increased the amount it can withhold from 12 to 19 percent in
       order to incentivize HP to improve service delivery.
      Phase-In Plan. Adjusted the transition approach to include HP’s purchase of
       existing ODIN assets and support of those assets until HP refreshes the seats. The
       updated phase-in plan describes HP’s plan to deploy new ACES equipment and
       its approach for completing the ACES transition.
      Management Plan. Revised HP’s Management Plan and replaced several key
       members of the ACES management team.

Performance Metrics. NASA assesses HP’s performance via service level agreements
that outline the level, scope, and quality of a service; the way in which NASA measures
the service; and the penalty for inadequate performance (retainage). Service level
agreement categories include such areas as service delivery, customer satisfaction,
incident management, and adherence to the equipment refresh schedule. Throughout the
first 2 years of the contract, NASA has struggled to develop sound performance measures
to evaluate HP’s performance. As noted previously, NASA changed the original metrics
in April 2012 with contract modification 48 after HP failed to complete the refresh in the
promised 6 months. A second revision to this criteria occurred in October 2013 when
NASA agreed to make changes to the performance metrics in response to a claim by HP
related to performance calculations and retainage amounts. In January 2014, NASA
rewrote the performance metrics for a third time.

Since contract inception, NASA has retained approximately $6.9 million from HP for
inadequate performance related to the contract service level agreements. HP’s
performance is measured using four retainage pools and their associated service level
agreements:

      Metrics Retainage Pool is calculated monthly and is comprised of 8 percent of the
       total monthly costs allocated between seven areas: (1) Service Delivery, (2)
       Service Availability Non-Base Services, (3) Service Availability Base Services,
       (4) Customer Satisfaction, (5) Security Management Services, (6) Incident
       Management, and (7) Service Asset Management Effectiveness.



                                           10
      Performance Retainage Pool is assessed quarterly and is comprised of a retainage
       at risk amount of 2 percent per month or 6 percent for each quarterly review
       period.
      Schedule Retainage Pool is calculated monthly and is comprised of 5 percent of
       the total monthly costs allocated between two areas: (1) Legacy Refresh Schedule
       Adherence and (2) Contract Compliance Schedule. Review and evaluation of
       these metrics will continue through the end of the initial ACES computer seat
       deployment or completion of the ACES technical services, whichever is later.
      Small Business Utilization Pool is comprised of 1 percent of the contractor’s net
       monthly invoice and is evaluated against originally proposed Contractor
       Subcontracting Plan goals.

HP is required to submit monthly reports to NASA identifying its performance against
the established metrics. NASA uses these reports along with the personal observations
and assessments of NASA staff to evaluate HP’s performance. Several Agency IT
representatives expressed concern that NASA is placing too much reliance on HP’s data
to measure the company’s performance. Further, many Agency IT representatives told us
that even though HP is generally meeting most performance metrics, a significant number
of users remain unsatisfied, leading the representatives to question whether NASA is
incentivizing the right behavior. While NASA intended to design the contract’s
performance metrics and retainage pools to promote excellent service delivery and
customer satisfaction, Agency officials did not accurately foresee the resources necessary
to monitor and evaluate contractor performance in a process many IT representatives
describe as overly burdensome.

ACES Product Catalog. The ACES contract requires HP to provide a web-based
catalog of commercial IT products not included as part of base services. Using this
catalog, employees can place orders, check order status, resolve disputed orders, schedule
delivery and installation, and return equipment. The contract states that HP shall offer
hardware and software prices at a 30 percent discount below the manufacturer’s
suggested retail price. However, we found that the product catalog is limited and
equipment and software is often unavailable. According to NASA managers, HP’s
shrinking profit margins are driving product availability and HP has removed items from
the catalog. According to the contract, NASA can direct HP to add or remove catalog
items. However, for approximately 4 months in 2013, HP removed all software from the
catalog without Agency permission, which led users to make IT purchases elsewhere.
Several IT managers told us that users at their Centers are placing orders using alternate
procurement vehicles and as a result NASA is not realizing the efficiencies and cost
savings initially envisioned with the ACES contract.

Lack of a Complete Ordering System. NASA does not have a fully functional system
to order ACES-provided equipment and services. The ACES contract states that NASA
will place all orders through either the Enterprise Service Request System (ESRS) or the




                                           11
Infrastructure Upgrade Ordering Process.12 NASA planned for the ESRS to provide
users with a single automated tool to place orders for end-user services and catalog
purchases. However, NASA included a statement in the “Ordering of Services and
Supplies” section of the contract noting that ESRS was still under development:

           Note to Offerors: The ESRS is being developed concurrently by the NASA Shared
           Services Center (NSSC) and Computer Sciences Corporation (CSC) under contract
           NNX05AA01C. As development of the ESRS matures, this clause will be revised to
           provide more comprehensive information on the system.

Nearly 2 years later, NASA still has not developed a complete and fully functional
ordering system. While NASA uses ESRS to place single orders, the system cannot
process bulk orders and no automated integration exists between NASA’s ordering
system and HP’s order fulfillment and asset tracking system. Consequently, the Agency
submits bulk orders using spreadsheets, which HP personnel manually enter into their
services and asset management systems.

The absence of a fully functional ordering system has affected HP’s ability to deliver
equipment and services. For example, the contract states that HP will refresh mobile
devices such as smartphones every 18 months. However, because the ordering system
has no mechanism for NASA managers to approve employee mobile device purchases or
upgrades, these devices are not being replaced on schedule. As a workaround, NASA
and HP have agreed to upgrades that do not involve additional service charges and are
strictly technology upgrades for the same service ordered, such as upgrading from an
iPhone 4 to an iPhone 5. Further, HP proposed adding an additional fee of $104 per
technical refresh to cover the cost of manually processing bulk orders. NASA has
rejected this fee proposal and, according to OCIO officials, is focusing on resolving
issues jointly with HP.

In addition to the incomplete ESRS ordering system, the Computer Sciences Corporation
(CSC) is also responsible for developing the Configuration Management Database to be
used to identify, maintain, track, and report on all ACES-managed equipment. However,
like the ESRS, the database is not fully functional. The requirements for developing both
systems were added to an existing service delivery contract between CSC and the NSSC.
However, because CSC receives its direction from the NSSC Board of Directors rather
than the OCIO, the OCIO has limited authority over CSC and does not direct its
activities.13 Some NASA IT managers believe that the ordering and tracking systems are
not complete because of competing priorities and a struggle for funding and resources
between the NSSC and the OCIO. Assigning the design and development of both the
ordering system and asset control systems to a service delivery contract outside the
control of the OCIO has not worked well, and to date neither system is complete or
functioning as intended.



12
     ESRS is an integrated management tool designed to be used by all I3P Contractors to coordinate and
     fulfill service requests.
13
     CSC is an NSSC support contractor.

                                                     12
Incomplete Inventory and Inaccurate Invoices. NASA does not have an accurate
database to track the services and associated equipment ordered through the ACES
contract. According to the contract, HP is required to maintain configuration control for
the ACES-managed/provided IT environment and update NASA’s tracking database with
current information after receiving, installing, refreshing, excessing, or moving items.
While the database was designed to be NASA’s authoritative record for validating ACES
services and invoices, NASA managers said the ordering system and database are not
integrated and the information in the database is not accurate, two factors that
significantly hinder NASA’s ability to validate ACES services and invoices. Currently, a
cumbersome multi-step process is used to populate the database with IT asset
information. Specifically, HP extracts the information from its asset tracking system into
a spreadsheet that NASA personnel load into the database. Agency officials informed us
that this manual process is error prone and time consuming. Further complicating
NASA’s ability to maintain an accurate inventory is the presence of unreliable
information in the database regarding legacy ODIN equipment. When HP purchased the
ODIN assets, the inventory was outdated and incomplete. However, this admittedly
inaccurate data was relied upon to determine the refresh schedule and to produce invoices
for NASA. Although NASA and HP are currently working to correct the data, this task
will require substantial resources and tremendous effort.

While an interface with the vendor is necessary to gather asset information for deployed
seats, we question why NASA does not maintain its own inventory of assets in order to
verify the accuracy of the invoices it receives from HP. During our review, we identified
several reoccurring issues with ACES invoices, including: (1) IT equipment or mobile
devices assigned to the wrong employee, the wrong Center, or both; (2) invoices with
incorrect installation dates; and (3) invoice errors being corrected one month but
reappearing the next. We also noted that NASA Centers and Programs are expending a
great deal of internal and contractor resources to verify monthly invoices.

Without an accurate inventory, NASA cannot be sure it is paying the correct amount for
each ACES seat. To determine the amount of money potentially at risk, we averaged the
cost of the standard computer seat or “S” available to all NASA employees for a
Windows and Apple desktop and laptop during the first 3 years of the contract. Because
the cost per seat can vary, we used the lowest cost for each device in our calculations.
We then determined the average price NASA will pay for the computer seat based on an
expected 3-year useful life of the equipment. We calculated that NASA pays between
$2,300-4,000 to order an “S” seat from HPES for 3 years. Even with the substantial
resources devoted each month to reconciling HP invoices, almost 2 years into the contract
NASA has little assurance the amount it pays HP is correct.




                                           13
                                       Table 1. ACES Cost Per Seat
                                                              Average Cost Per              Average 3 Year
     Equipment                                                Device Per Month                Service Cost
     Microsoft Desktop                                                   $65.11                  $2,343.96
     Microsoft Laptop                                                     78.93                   2,841.48
     Apple Desktop                                                       101.42                   3,651.12
     Apple Laptop                                                        111.36                   4,008.96
Source: OIG analysis of ACES contract data.

The cost-per-seat listed in Table 1 is for the standard computing seat. However, the
contract provides that HP will also provide three other types of seats : the “M” seat with
pre-defined services and services that can be modified by the end-user; the “B” seat for
which services are “built” to specific end-user requirements and service options; and the
“T” seat for which services are rendered through a thin client appliance with predefined
services and service options.14 According to NASA IT officials, “B” seats are currently
very limited and HP has yet to deliver any “T” seats.

Security and Patch Management. In addition to billing issues, the lack of an accurate
and complete inventory poses a significant risk to NASA’s IT security. According to the
SANS Institute, a leading research and education organization of IT security
professionals, the top security control for effective cyber defense is an “inventory of
authorized and unauthorized devices.” In other words, to secure its network an
organization must know what equipment is connected to that network. Accordingly, the
lack of a complete and accurate inventory poses an ongoing security challenge for
NASA.

In addition, NASA’s Security Operations Center – the entity that provides centralized,
continuous monitoring of the Agency’s computer network traffic as well as the
coordination, tracking, and reporting of security incidents – reported in September 2013
that ACES failed to deploy multiple updates, such as security patches, in a timely
manner, with some updates several months overdue. Patch management is the practice of
installing software designed to fix problems or update a computer program and its
supporting data. Because these patches are critical to proactively prevent the exploitation
of vulnerabilities on IT devices and ensure the security of NASA’s networks, it is crucial
they be timely installed. However, NASA IT officials told us that patch management of
ACES computers needed improvement. Many cited the requirement of end-user
interaction and the delay in installing patches as two of the more crucial IT security
issues. Because patches are only installed on machines during business hours, many
users do not interrupt their workflow to install the necessary patch, leaving their
computers susceptible to vulnerabilities. To address this issue, HP recently adjusted the
patch schedule to occur at night. However, because computers must be powered on and
connected to the NASA network to receive the patches, user interaction is still required.

14
     “Service Option” is the characteristics and metrics that define a particular type of support to be provided
     by the contractor. A thin client appliance refers to either a software program or an actual computer that
     relies heavily on another computer to do most of its work.

                                                        14
Data Management. We are concerned that NASA data stored on ACES computers may
not be adequately safeguarded at the end of the machines’ useful lives. NASA does not
own the ACES equipment and returns it to HP when no longer needed. As part of this
process, the contract requires HP to provide “Wipe and Load” services for ACES seats.
Wiping is the act of erasing all information on computer hard drives and bringing the seat
back to the current, fully functional baseline configuration. HP relies on one
subcontractor to collect devices and another to wipe the hard drives. According to the
ACES Subject Matter Experts we spoke with, there is little accountability and weak
internal controls when the computers are collected for Wipe and Load services. For
example, many users do not receive a receipt for removed equipment and the equipment
often continues to appear as “active” in the ACES inventory. Once the computers are
collected, the subcontractor loads them into vehicles (sometimes the personal vehicles of
subcontractor staff) and the computers leave NASA control to travel to another
subcontractor for hard drive wiping. In many cases, this equipment – potentially
containing large amounts of NASA data – travels hundreds of miles from the NASA
Center to the subcontractor’s location before the hard drives are sanitized.

Staffing. Both NASA and HP have experienced extensive turnover of key IT,
procurement, and other staff involved in the daily administration of the ACES contract.
Moreover, NASA relies on a single contracting officer at the NSSC to administer the
ACES contract and accomplish the tasks multiple contracting officers performed for the
ODIN contract. During the first 2 years of the ACES contract, the project has had four
contracting officers and five contracting officer technical representatives.15 Several
people involved in administering the ACES contract raised concerns that the contracting
officer is located at the NSSC while the contracting officer technical representative works
out of the End-User Service Office at the Marshall Space Flight Center. NASA has also
experienced turnover in the ACES End-User Services Office and among Center IT
personnel dedicated to implementing the contract. On the HP side, company officials
acknowledge they did not appropriately staff the transition from ODIN to ACES and that
they have experienced high staff turnover at the Centers.

A September 2013 study by the OCIO found that lack of skills and limited knowledge of
HP Center technicians was leading to inefficient processes, a lack of confidence by
customers, and an increase in customer dissatisfaction. Additionally, an HP
representative told us that subcontractors at NASA Headquarters walked off the job over
a dispute regarding how they were paid for installing new equipment. Specifically, they
were being paid based on the number of computers installed – installations they could not
complete if NASA users turned them away. HP representatives estimated that at the time
employees were denying approximately 40 percent of planned refreshes at Goddard
Space Flight Center. NASA IT managers said some of the users refused equipment either
because they did not order it or because it was wrong equipment. To address this issue,
NASA and HP are instituting a $100 per seat charge to the party at fault for any
installation missed four or more times. We are concerned that these staffing issues affect
the quality and consistency of service delivery.

15
     A contracting officer’s technical representative assists in the technical monitoring and administration of a
     contract.

                                                        15
We are also concerned about the safety of NASA-leased equipment and information if
subcontractors with access to this property have not completed proper background
checks. Specifically, we identified several HP subcontractors working at NASA Centers
who had criminal histories related to theft and child pornography – issues that should
have been flagged with appropriate background screenings.

Cost Savings. NASA estimates that had the ACES contract been implemented as
planned, the Agency would have saved approximately $31 million a year compared to the
ODIN contract. However, because of the many modifications to the contract and the lack
of a complete ACES inventory, NASA cannot accurately measure the true cost of the
ACES contract or determine whether it has resulted in any savings to the Agency. In
addition to the indirect cost related to validating ACES invoices, staff turnover, and the
civil service resources devoted to the contract activities, NASA is incurring additional
costs beyond the base and seat charges that may affect the total cost of the contract. For
example, among the claims submitted by HP for additional payments from NASA are
charges for $12.9 million in June 2013 for services the company believes it provided in
excess of contract requirements and $5.4 million in July 2013 disputing performance
calculations and subsequent payment retainage. NASA settled the latter claim in the fall
of 2013. Furthermore, as previously mentioned NASA paid HP an additional $220,000
between July 2012 and March 2013 to expedite encryption on laptops computers.

NASA continues to modify the contract to address gaps and request additional services
that result in additional charges. Of the 200-plus contract modifications, 128 were for
IUPs. NASA uses IUPs to request a variety of services such as a dedicated ACES
technician for a specific NASA program or a Center paying for an early technical refresh.
As of November 2013, NASA has negotiated $31.6 million in IUPs with HP. In the 2
years since its inception, NASA has made over 200 contract modifications to the ACES
contract. In our opinion, the high number of modifications in such a relatively short
period indicates that the contract was not specific enough to meet the needs of NASA’s
decentralized IT environment and that the services provided to date are not meeting
NASA’s expectations.

Lessons Learned. During our review, ACES stakeholders, including HP representatives
and NASA IT and procurement officials, shared with us the issues, risks, and lessons
learned they have encountered during development and implementation of the ACES
contract, including:

      Ensure Agency requirements are clearly defined in a complete, concise, and
       realistic contract.
      Consider mechanisms or options available to the Agency to enforce contract
       requirements that are not met.
      Review performance metrics to ensure they promote the intended outcome and
       ensure that NASA has a viable means to measure the contractor’s performance,
       including allocating sufficient staff with adequate time to spend on the project.



                                           16
           Address the barriers hindering development of a fully functional ordering system
            or explore alternative solutions.
           Establish an inventory of services and assets in order to verify the accuracy of
            invoices and ensure proper security and patching of devices.
           Consider reviewing current data management practices.
           Ensure identification of the proper resources, such as staffing, technical skills, and
            management to execute contract requirements.

Management Action
  NASA is fast approaching a crossroads related to the ACES contract and soon must
  decide whether to execute the first 3-year option period or begin a lengthy and
  labor-intensive effort to identify alternates to obtain its critical IT services. Prior to
  making this decision, we encourage NASA to consider the information contained in this
  memorandum in addition to its own reviews, feedback from customers and stakeholders,
  and estimates of its projected future funding levels.




  cc:       David Radzanowski
            Chief of Staff, Office of the Administrator

            Bill McNally
            Assistant Administrator for Procurement




                                                 17
